CREDIT CARD DISCLOSURES

Arbor Financial Credit Union
1551 S. 9th Street
Kalamazoo, MI 49009
269-375-6702 or 800-442-7340
www.arborfcu.org

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card is
accurate as of 04/01/2021
_________________. You can contact us toll free at the number or address above to inquire if any changes
occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
Advantage Visa Card

Rewards Visa Card
Annual Percentage Rate (APR)
for Purchases, Cash Advances,
& Balance Transfers

9.25 %, 10.25 %,
13.25 %, 14.25 %,
15.25 %, or 16.25 %
depending on your credit history. This
APR will vary with the market based on
the Prime Rate.

6.0 %, 7.25 %,
11.25 %, 13.25 %,
14.25 %, or 15.25 %
depending on your credit history. This
APR will vary with the market based on
the Prime Rate.

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not
charge you interest on purchases if you pay your entire new purchase balance by the
due date each month. We will begin charging interest on cash advances and balance
transfers on the date the cash advance or balance transfer is posted to your account.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain your
Account
• Annual Fee:
• Application Fee:
Transaction Fees
• Balance Transfer:
• Cash Advance:
• Foreign Transaction:

Penalty Fees
• Late Payment:
• Over-the-Credit Limit:
• Returned Payment:

None
None

None
None
1% of each transaction in U.S. dollars if the transaction involves a currency conversion
1% of each transaction in U.S. dollars if the transaction does not involve a currency
conversion

Up to $25.00 if your payment is late 10 days or more
None
Up to $27.00 the first time your payment is returned for any reason. If a subsequent
payment is returned for any reason within the following 6 billing cycles, you will be
charged up to $35.00 for each returned payment.

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."

